No. 19-109
IN THE SUPREME COURT OF THE UNITED STATES
_________________
GIOVANNI MONTIJO-DOMINGUEZ, PETITIONER
v.
UNITED STATES OF AMERICA
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via email and first-class mail,
postage prepaid, this 15th day of November, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5357 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on November 15, 2019.

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
November 15, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0109
MONTIJO-DOMINGUEZ, GIOVANNI
USA

ILANA H. EISENSTEIN
DLA PIPER LLP
ONE LIBERTY PLACE
1650 MARKET STREET
SUITE 4900
PHILADELPHIA, PA 19103-7300
215-656-3351
ILANA.EISENSTEIN@DLAPIPER.COM
RACHEL A. HORTON
DLA PIPER LLP (US)
ONE LIBERTY PLACE
1650 MARKET STREET
SUITE 5000
PHILADELPHIA, PA 19103-7300
215-656-3307
RACHEL.HORTON@DLAPIPER.COM
MICHAEL B. KIMBERLY
MCDERMOTT, WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM
JOSHUA S. O'HARA
VERMONT ASSOCIATION OF CRIMINAL
DEFENSE LAWYERS
90 BEECH STREET
ESSEX JUNCTION, VT 05452
JOSH.OHARA@VERMONT.GOV

WENDY CURTIS PALEN
PALEN LAW OFFICES, LLP
PO BOX 156
GLENDO, WY 82213
307-735-4022

